     FOLLOW-UP AUDIT OF THE
  IMPLEMENTATION OF THE NORTH
AMERICAN FREE TRADE AGREEMENT’S
 (NAFTA) CROSS BORDER TRUCKING
           PROVISIONS
   Federal Motor Carrier Safety Administration
       Report Number: MH-2005-032
        Date Issued: January 3, 2005
                                  Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Follow-up Audit of the Implementation          Date:    January 3, 2005
           of the North American Free Trade Agreement’s
           Cross-Border Trucking Provisions
           Report Number: MH-2005-032
  From:    Alexis M. Stefani                                   Reply to
                                                               Attn. of:   JA-40
           Principal Assistant Inspector General
             for Auditing and Evaluation
    To:    Federal Motor Carrier Safety Administrator


           INTRODUCTION
           With the signing of the North American Free Trade Agreement (NAFTA) in
           December 1992, the United States of America and Mexico consented to cross-
           border trucking throughout both countries by January 1, 2000. However, in
           December 1995, the United States indefinitely delayed implementation of NAFTA
           cross-border provisions, citing safety reasons.

           The Department of Transportation and Related Agencies Appropriations Act for
           Fiscal Year 2002 (the FY 2002 Act) provided funds to the Federal Motor Carrier
           Safety Administration (FMCSA) to implement NAFTA. However, Section 350 of
           the FY 2002 Act prohibited FMCSA from using funds to review or process
           applications of Mexican-domiciled motor carriers (Mexican motor carriers)
           seeking to operate throughout the United States (commonly referred to as long-
           haul) until certain safety requirements and preconditions were met. In a
           conference agreement to the Consolidated Appropriations Act for FY 2004,
           Congress made funds appropriated in the FY 2004 Act subject to the terms and
           conditions of Section 350, which include three major areas.

           • FMCSA Safety Monitoring Requirements. Before FMCSA can process an
             application by a Mexican motor carrier for authority to operate beyond the
                                                                                                             2


      United States (U.S.) commercial zones,1 FMCSA must meet a number of
      preconditions.2 Among these are requiring safety audits of Mexican motor
      carriers before granting long-haul authority; verifying Mexican commercial
      driver’s licenses; and inspecting the vehicles operated by Mexican motor
      carriers seeking long-haul authority.

• Hazardous Materials Agreement. Section 350 restricts vehicles owned or
  leased by Mexican motor carriers and transporting hazardous materials from
  operating outside the commercial zones until an agreement is reached between
  the United States and Mexico that holds hazardous material drivers from both
  countries to substantially the same requirements.

• OIG Review of Border Infrastructure and Procedures. Section 350 directs
  the Office of Inspector General (OIG) to annually review border operations
  and to verify whether eight requirements are met. These requirements relate to
  the hiring and training of inspectors, establishment of inspection facilities, and
  development of safety processes and procedures for Mexican long-haul motor
  carriers.

Prior OIG Findings and Recent Events. On June 25, 2002, we reported3 that
FMCSA had made substantial progress toward meeting Section 350 requirements,
and we identified issues related to hiring, training, facilities improvements, and
database access that required further action. On November 20, 2002, the Secretary
of Transportation certified that authorizing Mexican carrier operations throughout
the United States did not pose an unacceptable safety risk.                    On
November 27, 2002, the President lifted the moratorium on granting operating
authority to Mexican motor carriers. The President further authorized the
Department of Transportation to act on applications that Mexican motor carriers
submitted to obtain authority to operate scheduled cross-border bus and truck
services throughout the United States.

On January 16, 2003, the President’s action and the processing of Mexican carrier
applications were effectively precluded when a panel of the U.S. Court of Appeals
for the Ninth Circuit issued its decision in Public Citizen v. Department of
Transportation. The Court of Appeals’ decision set aside three FMCSA
regulations needed for processing Mexican applications for long-haul authority,
pending completion of an Environmental Impact Statement and a Clean Air Act
analysis. On June 7, 2004, the U.S. Supreme Court reversed the Ninth Circuit’s
January 2003 ruling. In a press release responding to the Supreme Court’s
decision, the Secretary of Transportation stated that the ruling “opens the way for
1
    Commercial zones at the U.S.-Mexico border generally extend from 3 to 20 miles north of U.S. border cities.
2
    A complete list of Section 350 provisions is in Exhibit D.
3
    OIG Report Number MH-2002-094, “Implementation of Commercial Vehicle Safety Requirements at the U.S.-
    Mexico Border,” June 25, 2002. OIG reports can be found on our website: www.oig.dot.gov .
                                                                                                    3


the U.S. Department of Transportation to continue working with Mexican
authorities to move forward with long-haul bus and truck operations.”

Our most recent report4 on the implementation of the provisions in Section 350 of
the FY 2002 Act was issued on May 16, 2003, after the Ninth Circuit’s ruling and
prior to the Supreme Court’s decision. We reported that FMCSA had substantially
completed the actions necessary to meet Section 350 requirements, but we raised
a concern about the enforcement of operating authority rules by the states.


OBJECTIVES AND SCOPE
Our primary objective was to verify whether FMCSA has the staff, facilities,
equipment, and procedures in place to comply with the provisions in Section 350
of the FY 2002 Act that are to be reviewed annually by the OIG. We also:

• Identified any impediments preventing FMCSA personnel from conducting
  safety audits and compliance reviews in Mexico, and assessed the current
  applicability of the hazardous material provision in Section 350.

• Examined any additional issues that came to our attention that could present
  safety issues for implementation of NAFTA cross-border trucking provisions
  at the southern border.

Our audit work included comprehensive reviews at 14 statistically selected
commercial crossings at the southern border that had approximately 90 percent of
the 4.3 million truck entries into the United States from Mexico in FY 2003. The
audit also included visits to 17 selected bus crossings, reviews of inspections
carried out at the border, and our analysis of data on inspections of U.S. and
Mexican carriers. Details of our objectives, scope, and methodology are in
Exhibit A. Further information on prior audit coverage is in Exhibit B.




4
    OIG Report Number MH-2003-041, “Follow-up Audit on the Implementation of Commercial Vehicle Safety
    Requirements at the U.S.-Mexico Border,” May 16, 2003.
                                                                                                                 4




RESULTS IN BRIEF
FMCSA has sufficient staff, facilities, equipment, and procedures in place to
substantially meet the eight Section 350 provisions for Mexican long-haul trucks.
The vehicle out-of-service rate for Mexican motor carriers has declined from 40
percent to 23 percent between FYs 1999 and 2003, as compared to the FY 2003
rate of 22 percent for U.S. interstate carriers.5 As of September 2004, FMCSA
had received applications from 678 Mexican motor carriers seeking long-haul
authority to operate about 4,000 vehicles. This is up from the 232 carriers that had
applied as of March 2003, with the intention of operating about 1,400 long-haul
vehicles.

However, until an agreement or other understandings related to on-site safety
reviews is reached with Mexico, FMCSA cannot, in our view, grant long-haul
operating authority to any Mexican motor carrier. Section 350 requires that 50
percent of Mexican motor carriers applying for long-haul authority be reviewed
on-site and that on-site reviews cover at least 50 percent of the estimated truck
traffic in any year. Agreed-upon procedures with Mexico for conducting such
reviews have not yet been established, however, Department officials are
evaluating with Mexico the need for and the contents of a protocol regarding on-
site reviews.

Additionally, new background requirements for U.S. drivers applying for
hazardous materials endorsements were instituted by the USA PATRIOT Act and
partially implemented, following our last review, by FMCSA and Transportation
Security Administration (TSA) regulations. Given these new regulations, an
agreement will need to be in place with Mexico before vehicles owned or leased
by a Mexican motor carrier that is granted operating authority by FMCSA can be
permitted to haul hazardous materials beyond the commercial zones. TSA is
responsible for assessing intelligence and other information in order to identify
individuals who pose a threat to transportation security and to coordinate
countermeasures with other Federal agencies to address such threats. FMCSA and
TSA agree that TSA will have the lead in negotiating the agreement with Mexico
on this.

While the negotiations are being carried out with Mexico on these two issues,
which are preconditions to opening the border, FMCSA should close remaining
gaps in reaching full compliance with Section 350 requirements related to bus
coverage, enforcement authority, Weigh-in-Motion Systems (WIMS), and the


5
    Rates are calculated by OIG using FMCSA data. The FY 2003 vehicle out-of-service rate for Canadian carriers was
    12 percent.
                                                                                                                5


comprehensiveness of the system for monitoring Mexican driver records in the
United States.

We also identified five additional areas that do not pose specific Section 350
compliance issues, but which should be dealt with to prevent future problems.
FMCSA needs to obtain accurate data on Mexican carriers during future pre-
authority safety audits, ensure that Mexican carriers previously allowed to operate
outside commercial zones provide insurance information to FMCSA’s database,
complete ongoing efforts to address drug and alcohol testing issues, provide an
equivalent replacement for a border inspection facility that is being displaced, and
issue a final rule on Federal Motor Vehicle Safety Standards.

Bus Coverage. Commercial vehicles, by definition, include trucks and buses.
Section 350 provides no specific guidance distinguishing commercial buses from
commercial trucks although buses operate differently from commercial trucks at
the border. Trucks are restricted to designated commercial crossings at specific
times. Buses can use commercial truck crossings, but are permitted to enter the
United States at separate border crossings designated for buses.

Our work and FMCSA’s own reports show that, while buses are currently
inspected at commercial truck crossings, sufficient staff is not available at some
designated bus crossings to meet Section 350 requirements for verifying the
driver’s commercial license and inspecting vehicles that have expired Commercial
Vehicle Safety Alliance (CVSA)6 decals.

• At 4 crossings reviewed, buses crossing the border were not inspected and at
  10 other crossings inspection coverage was sporadic. For example, at Nogales,
  Arizona, after 10:00 p.m., buses are permitted to use a border crossing away
  from the commercial crossing that is not staffed by FMCSA or state inspection
  personnel.

• FMCSA reports, provided to us in response to our May 2003 audit, stated that
  at 15 bus crossings at the southern border FMCSA did not have adequate
  facilities or personnel to meet Section 350 requirements for commercial
  vehicles.

Although the number of future long-haul bus applicants is unknown, as of
September 2004, FMCSA had applications from 6 bus companies out of 678
applications for long-haul authority. Our May 2003 report noted that 238 motor
carriers, including 5 bus companies, had applied for long-haul operating authority.


6
    CVSA is an organization of Federal, state, and provincial government agencies and representatives from private
    industry in the United States, Canada, and Mexico dedicated to improving commercial vehicle safety.
                                                                                                            6


FMCSA officials told us a plan has been developed to enhance bus inspections
and FMCSA will work with passenger bus companies granted long-haul authority
to see that Section 350 requirements are met. However, FMCSA needs to provide
an aggressive timeline for developing and implementing the policy directives
designed to ensure that bus inspections and driver checks are properly handled for
buses.

Current methods used for bus inspections, such as inspecting a bus when it reaches
its destination, could be applied to buses granted long-haul authority. We
recognize that such alternative methods may be appropriate given issues such as
the handling of passengers during inspections. However, current FMCSA policies
do not detail specific alternative procedures to be used for long-haul bus traffic at
the border. Before granting long-haul authority to buses, FMCSA should revise its
policies and implement procedures for inspecting long-haul buses across all four
southern border states. Staffing and facility plans should also be revised, as
necessary, to respond to the issues raised by FMCSA staff and our observations.

Enforcement Authority. Section 350 requires that measures are in place to
ensure that effective enforcement actions can be taken against Mexican motor
carriers. This includes taking action against Mexican carriers that do not have
proper operating authority. Our June 2002 report brought to the Department’s
attention that only California and Arizona could enforce operating authority
violations. The situation has improved since our 2002 report. However, gaps still
exist in this important control that allows states to take action against Mexican
carriers attempting to operate beyond the commercial zones without complying
with the safety rules established in Section 350.

FMCSA issued an interim final rule in August 2002 requiring state inspectors to
place out of service any commercial vehicles operating without authority or
beyond the scope of their authority. As of July 2004, only five states outside the
border region (Alaska, Michigan, New Jersey, New York, and North Carolina),
still needed to adopt rules to enforce operating authority. This is good progress.
However, based upon discussions with officials at 147 states that had adopted the
rule, problems exist with its implementation. Only 4 states reported being
prepared to place vehicles out of service. The remaining 10 reported that they
would only issue fines or citations to the drivers or take no action pending more
guidance from FMCSA. Four states contacted also expressed implementation
concerns because the CVSA out-of-service criteria do not include vehicles
operating without authority. In our view, full compliance with the August 2002
rule will not occur as long as certain states view the terminology in the rule as an


7
    Illinois, West Virginia, Colorado, Tennessee, Alabama, Indiana, Texas, Florida, Ohio, Missouri, Louisiana,
    Delaware, Montana, South Dakota.
                                                                                                                       7


impediment to issuing out-of-service violations to carriers operating without
authority.

We cannot reliably estimate the magnitude to which Mexican carriers are
operating outside the commercial zones. However, our analysis of FMCSA’s
database covering the period from September 2002 through May 2004 shows 197
inspections and 9 crashes in non-border states involving 144 Mexican carriers that
are not authorized to operate outside the commercial zone. An unknown number
of the Mexican carriers could be legally operating in the United States under an
exception8 allowing Mexican or other foreign carriers to transit the United States
as long as they meet U.S. insurance filing and safety requirements and do not load
or unload cargo in the United States. Also, several of the nine crashes may have
been erroneously charged to a Mexican carrier.

To reach full compliance with Section 350 provisions on taking effective
enforcement actions against Mexican carriers, FMCSA should ensure that all
states adopt and fully comply with the August 2002 rule. Specifically, FMCSA
should address concerns about the use of out-of-service terminology in the
enforcement authority rule and provide guidance or training support as needed to
ensure complete and consistent implementation of the rule by the states.

Weigh-in-Motion Systems. As required by Section 350, WIMS are in place at
the 10 highest volume crossings. However, at the time of our visits, WIMS were
not working at four Texas inspection facilities. We were subsequently informed
that as of September 2004, three of the four were working. In our opinion, full
compliance with Section 350 requires that all WIMS be operable at the 10 highest
volume crossings. In responding to the draft report, FMCSA stated that it had
funded the 10 WIMS and a requirement for states to have a maintenance program
would be included in the state’s Commercial Vehicle Safety Plans.

Improving the System for Monitoring Mexican Driver Records in the United
States. Section 350 requires a database with sufficiently comprehensive data to
allow for the safety monitoring of Mexican motor carriers and driver records.
While FMCSA has established separate systems for monitoring Mexican carriers
and drivers, four states (Maine, Oregon, Pennsylvania, and Virginia) have not
tested the driver system9 to ensure that they could send Mexican driver convictions
to the database. In addition, as of June 2004, California had provided only 19
convictions to the database, while Texas, by contrast, had over 4,000 convictions
listed. To ensure that the driver system contains sufficiently comprehensive data,
FMCSA should take actions to ensure that all states complete testing of the system
and to correct problems with inconsistent populating of the database.
8
    Title 49, United States Code (USC), Section 13501 (This provision provides DOT's jurisdiction over motor carrier
    operating authority, but does not include transportation between two foreign countries.)
9
    Known as the 52nd state system.
                                                                                                8


Additional Areas Needing Attention. We identified five additional areas that do
not pose Section 350 compliance problems, but which should be dealt with to
prevent future problems should long-haul authority be granted to Mexican motor
carriers.

              Data on Mexican Carriers. The effective monitoring of Mexican
              carriers over the long term will depend, in part, on the quality of the
              data obtained on their operations. One potential problem area involves
              data on Mexican motor carriers supplied to and used by FMCSA’s
              Motor Carrier Safety Status Measurement System (SafeStat) to target
              high-risk carriers for compliance reviews. This system relies on motor
              carrier-supplied information on the number of vehicles and the number
              of drivers, in combination with other data, to calculate rankings for
              carriers. Based on information obtained for a prior audit, 10 data quality
              problems are more serious, on average, for Mexican carriers than for
              U.S. carriers, although data for U.S. carriers is also a concern. For
              example, about 50 percent of the Mexican motor carriers on record had
              reported zero vehicles or power units, versus 10 percent for U.S.
              carriers. To eliminate this problem, FMCSA will need to ensure that
              data obtained from Mexican carriers prior to the granting of long-haul
              authority are accurate and up-to-date.

              SafeStat also uses state-reported crashes to calculate SafeStat rankings
              and target carriers for review. However, we reported that an estimated
              one-third of the trucks involved in crashes were not reported to the
              FMCSA database. In response to our prior report, FMCSA has taken
              actions to address data quality problems. The degree to which FMCSA
              can successfully track any future crashes involving Mexican carriers
              operating in the United States will be dependent, in part, on the success
              of these efforts.

              Verifying Insurance Information. Section 350 states that FMCSA
              must require Mexican motor carriers seeking long-haul authority to
              provide proof of valid insurance with a company licensed in the United
              States, and FMCSA must verify proof of insurance during safety
              reviews. FMCSA’s rule for Mexican long-haul applicants and the
              guidance issued for pre-authority safety reviews for long-haul applicants
              include this requirement.

              We could not assess the implementation of this requirement because
              long-haul authority has not yet been granted to any Mexican motor

10
     OIG Report Number MH-2004-034, “Improvements Needed in the Safety Status Measurement System,”
     February 13, 2004.
                                                                           9


carriers. However, given concerns brought to our attention about U.S.
companies being unwilling to offer coverage to Mexican-based
companies, vigilance will be needed to ensure that valid insurance is
being carried by all Mexican motor carriers. In addition, about 1,300
Mexican-domiciled motor carriers, previously given approval to operate
beyond the commercial zone because they were at least 55 percent U.S.-
owned, should be required to provide information for FMCSA’s
insurance database.

Drug and Alcohol Testing. Section 350 states that FMCSA must
conduct a safety audit of Mexican motor carriers seeking long-haul
authority, including verification that the carrier has a drug and alcohol
testing program consistent with Code of Federal Regulations (CFR),
Title 49, Part 40. Because long-haul authority has not yet been granted
to any Mexican motor carriers and there have been no safety audits of
long-haul applicant carriers, we could not assess the implementation of
this requirement. We did find that safety audits conducted of Mexican
carriers operating within the commercial zone do address drug and
alcohol testing requirements. These requirements include the use of
drug testing labs certified by the U.S. Department of Health and Human
Services (HHS).

Mexico does not have a certified drug testing lab at this time.
Department of Transportation (DOT) officials informed us that until
such a lab meets HHS certification standards, drug test collection
facilities in Mexico are sending specimens to certified labs in the United
States for processing. DOT's Office of Drug and Alcohol Policy and
Compliance (ODAPC) is working with FMCSA and other DOT staff to
develop an internal plan for addressing drug and alcohol testing issues,
and a memorandum of understanding has been established with Mexico
in the drug and alcohol testing area. DOT agencies, through inspections
and audits, periodically review U.S. collection facilities to ensure
compliance with established protocols. Collection facilities in Mexico
are not reviewed by U.S. officials. The need for a certified lab in
Mexico will intensify, and the need to have controls over collection sites
will increase, as the number of Mexican motor carriers seeking long-
haul authority increases. FMCSA should continue its work with
ODAPC and other DOT staff to ensure that drug and alcohol testing
issues, such as the establishment of sufficient controls at collection sites,
are adequately addressed.

Replacements for an Inspection Facility. Our latest visits to the
border also showed that a replacement for the Federal inspection facility
                                                                                10


          at Eagle Pass in Texas, which is scheduled to be displaced within a year,
          is uncertain at this time. Eagle Pass is 1 of the 10 largest volume
          crossings. Because current plans do not include new space for FMCSA
          inspections, FMCSA will have to work with the General Services
          Administration (GSA) to ensure that a comparable inspection facility at
          Eagle Pass is constructed. In its response to the draft report, FMCSA
          stated that it is working with GSA to ensure that GSA considers its
          needs in future plans at all ports, including Eagle Pass.

          Vehicle Safety Standards. Finally, although not a specific requirement
          of Section 350, FMCSA has proposed a rule to ensure that all motor
          carriers operating in the United States, including Mexican carriers, use
          only commercial vehicles that were certified by the manufacturer as
          meeting all applicable Federal safety requirements. When proposing the
          rule in 2002, FMCSA stated that the action was needed to ensure
          effective enforcement against commercial vehicles that may not meet all
          of the applicable safety standards. Comments on the proposed rule
          showed opposition to a 24-month phase-in period that would apply to
          Mexican vehicles previously allowed to operate in the United States.
          Congress also acted in the FY 2005 Omnibus Appropriations Act to
          prohibit the use of funds to issue or implement any regulation related to
          a phase-in period. Resolution of this issue will be important if
          increasing numbers of Mexican motor carriers are operating in the
          United States. As of November 29, 2004, the rule was under review in
          the Office of Management and Budget.

Further details on our work are provided below. Our recommendations recognize
that the resolution of issues involving reaching agreements or understandings with
Mexican authorities may be outside FMCSA’s control. However, FMCSA should
address shortfalls that remain in meeting Section 350 requirements, and forestall
future implementation problems during the time that may be needed to reach these
agreements or understandings.


SUMMARY OF MANAGEMENT COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE
We provided FMCSA a draft of this report on September 20, 2004. In its
comments, provided on October 20, 2004 and December 10, 2004, FMCSA
identified actions taken on each of the recommendations and stated that it would
continue to deal with these issues and others as they are brought to its attention.
FMCSA also expressed concerns that the audit’s scope was too broad in that it
                                                                                11


included recommendations not specifically related to meeting congressional
preconditions to opening the United States-Mexico border.

We appreciate FMCSA’s comments on the draft report. However, we continue to
report on other issues we believe merit FMCSA's attention, in addition to the
unmet preconditions for opening the border, as cited in our discussion for
recommendation 1. FMCSA has substantially met the eight Section 350
provisions for Mexican long-haul trucks subject to OIG verification. Still, our
obligation to conduct a comprehensive review of border operations requires us to
report on remaining gaps impacting full compliance with Section 350 and other
issues, outside Section 350 requirements, that will need attention should long-haul
authority be granted to Mexican motor carriers.

Overall, FMCSA comments on our specific recommendations were responsive,
and where appropriate, target dates were provided for planned actions.
Specifically, regarding recommendation 1, which dealt with two required
agreements or understandings for opening the border, FMCSA will:

• Work closely with Departmental and other officials to ensure that the on-site
  reviews will be conducted in a legal manner and with the knowledge of the
  appropriate Mexican government officials.

• Continue to provide technical assistance to TSA, as requested, with the
  development of an agreement with Mexico regarding equivalent requirements
  for Mexican hazardous material drivers. TSA will have the lead.

For recommendation 2, regarding the remaining gaps in meeting Section 350
requirements, FMCSA agreed to:

• Work with bus carriers granted operating authority and with the Bureau of
  Customs and Border Protection to ensure Section 350 requirements are met.
  The approved plans and procedures will be in place no later than the end of
  FY 2005.

• Aggressively encourage states that have not yet adopted the August 2002 rule
  on operating authority rule to do so and states that have adopted the rule to
  more effectively enforce it. We note that by September 2005, states must
  enforce the August 2002 rule as a requirement for the receipt of Motor Carrier
  Safety Assistance Program funds.

• Require each of the states with WIMS to include in its annual Commercial
  Vehicle Safety Plans a program for the maintenance of its border WIMS.
                                                                                 12


• Meet with the states to explain and/or correct inconsistencies in the database on
  Mexican drivers by the end of FY 2005.

These actions are responsive to recommendation 2. Accomplishment of planned
actions will be especially important if the issues being discussed with Mexico are
resolved quickly, and if an increasing number of Mexican motor carriers are
operating in the United States. The implementation of revised policies and
procedures for buses is needed to ensure appropriate driver checks and vehicle
inspections are performed for passenger carriers granted long-haul authority.
Timely action to achieve full state compliance with the August 2002 rule and to
improve the data used for monitoring Mexican drivers will provide controls
against Mexican carriers that do not comply with Section 350 requirements and
Mexican drivers that do not operate vehicles safely in the United States. Actions
planned on WIMS will protect the Federal investment in these systems.

For recommendation 3, regarding areas that do not pose specific Section 350
compliance issues, but which will need attention should long-haul authority be
granted to Mexican motor carriers, FMCSA stated that:

• Information on Mexican carriers will be verified during safety audits.

• Insurance information on Mexican carriers currently granted authority to
  operate outside the commercial zone will be addressed as FMCSA receives and
  begins to process the applications.

• It will meet with ODAPC at least semiannually, and with appropriate Mexican
  government officials, in conjunction with ODACP, to ensure proper
  procedures are followed at the collection sites in Mexico. In addition, it will
  emphasize attention to controlled substance and alcohol testing requirements
  during required safety audits.

FMCSA’s comments and planned actions on recommendation 3 are responsive
and we will follow up on agreed actions, as appropriate, in future audit work.
                                                                                13




RESULTS

Required Agreements or Understandings on On-Site Reviews
and Hazardous Material Drivers
The FY 2002 Act, Section 350, prohibited FMCSA from using funds to review or
process applications of Mexican-domiciled motor carriers until certain
preconditions involving on-site reviews of Mexican carriers are met. Section 350
also restricted the operation of any vehicle owned or leased by a Mexican motor
carrier until an agreement with Mexico ensures that Mexican drivers of hazardous
materials meet substantially the same requirements as that of U.S. drivers.

Agreement Allowing On-Site Reviews. Section 350 requires 50 percent of all
reviews of all Mexican carriers be conducted on-site and that on-site reviews be
conducted for 50 percent of the estimated truck traffic in any year. Thus, as of
June 2004, 339 of the 678 Mexican carriers seeking long-haul authority would
need to receive on-site safety reviews11 in Mexico to meet the requirements of
Section 350. No agreement or understanding has yet been reached between
Mexico and the United States on conducting these on-site reviews.

While Section 350 does not require that a specific agreement be in place before the
on-site reviews can be conducted, FMCSA officials stated that the Department’s
leadership would like to establish an appropriate understanding with Mexico prior
to sending FMCSA personnel into Mexico to conduct the reviews. Officials at the
border also indicated that they were awaiting procedures from FMCSA
Headquarters on conducting on-site reviews. As of August 4, 2004, safety reviews
and compliance reviews of Mexican motor carriers operating in the commercial
zone were conducted in the United States.

The Department is evaluating the need for and the contents of a protocol to guide
inspectors and auditors to conduct the on-site reviews in Mexico. In our opinion,
unless the Department concludes that an agreement or appropriate understanding
with Mexico is not required for FMCSA personnel to conduct reviews in Mexico,
the lack of agreed-upon procedures would at this time preclude the granting of
operating authority to any Mexican long-haul carriers. In commenting on the draft
report, FMCSA observed that the reference to “any” Mexican long-haul carriers
was an overstatement since Section 350 does not require on-site compliance
reviews for Mexican carriers with three or fewer commercial vehicles. We
recognize that Section 350 does not require on-site reviews for Mexican carriers
with three or fewer commercial vehicles under certain conditions. However, in
11
     Known as safety audits.
                                                                                                               14


our opinion, this provision on small carriers does not supersede other Section 350
requirements that 50 percent of all safety reviews of all Mexican carriers be
conducted on-site and that such inspections cover at least 50 percent of estimated
truck traffic in any year. Thus, until an agreement or understanding has been
reached between Mexico and the United States on conducting on-site reviews, the
provision allowing small carriers to be exempted from the on-site requirement
should not be implemented.

Hazardous Material Carriers. Section 350 states that no vehicles owned or
leased by a Mexican motor carrier and carrying hazardous materials in a
placardable quantity may be permitted to operate outside the commercial zones
until the United States has completed an agreement with Mexico related to the
drivers of such vehicles. The agreement must ensure that drivers of such vehicles
meet substantially the same requirements as that of U.S. drivers carrying
hazardous materials. FMCSA and TSA agree that TSA will have the lead in
negotiating this agreement.

Although a 1991 agreement between the United States and Mexico treated
commercial driver's licenses in each country as equivalent, requirements have
changed for certain U.S. drivers. Specifically, the requirements for U.S. drivers
with hazardous material endorsements significantly changed with the USA
PATRIOT Act, enacted in 2001.12 The Act requires background checks for all
commercial drivers who apply for, renew, or transfer a hazardous material
endorsement.

FMCSA and TSA issued regulations to implement the legislation in May 2003.
The FMCSA regulations, effective on November 3, 2003, require applicants for
hazardous material endorsements to comply with TSA regulations on hazardous
material endorsements. TSA regulations prohibit an individual from applying for
or holding hazardous material endorsements if the individual has been convicted
of a disqualifying criminal offense such as murder, robbery, or extortion. U.S.
drivers with hazardous materials endorsements who have committed these
offenses are currently required to relinquish their endorsements. In addition, TSA
stated before Congress on May 12, 2004 that it will conduct name-based security
threat assessments for all 3.5 million U.S. drivers holding hazardous material
endorsements by June 2004. The implementation of fingerprint-based background
checks by the states has been repeatedly delayed, and is not scheduled for
implementation, for new drivers, until January 31, 2005.

As of September 2, 2004, neither TSA nor FMCSA had reached an agreement
with the Government of Mexico to ensure that drivers of vehicles carrying

12
     Section 1012 of the Uniting and Strengthening America by Providing Appropriate Tools Required to Intercept and
     Obstruct Terrorism Act of 2001.
                                                                                                                         15


placardable quantities of hazardous materials meet substantially the same
requirements as United States drivers carrying such materials. Given the
requirements of the USA PATRIOT Act that are in effect and other provisions that
are being implemented, no vehicles owned or leased by Mexican motor carriers
can be permitted to haul hazardous materials beyond the commercial zones until
an agreement is in effect that meets the provision of Section 350 related to
Mexican drivers of hazardous materials. This provision would not prevent
FMCSA from granting operating authority to Mexican carriers but it would place
restrictions on the hauling of hazardous materials by vehicles owned or leased by
those carriers.


OIG Review of Border Infrastructure and Procedures
Based on our review, FMCSA has sufficient staff, facilities, equipment, and
procedures in place to substantially meet the eight Section 350 verification
requirements for Mexican long-haul trucks. Over the past 4 years, as inspections
of Mexican commercial vehicles within the southern border zones have increased
the out-of-service13 rate for Mexican vehicles has decreased from 40 to 23 percent.
However, although FMCSA has substantially fulfilled the eight verification
requirements, we found several conditions requiring attention to ensure that
Section 350 requirements are fully implemented.

Requirements on Border Infrastructure and Procedures Substantially
Fulfilled
Commercial Traffic and Out-of-Service Rates. Approximately 4.3 million
commercial trucks enter the United States at the Mexico border each year. Federal
and state inspections14 of Mexican trucks within the southern border zones have
increased significantly over the last 4 years, with vehicle inspections increasing
from 37,000 in FY 1999 to 136,000 in FY 2003.

As shown in Figure 1, as the number of vehicle inspections has increased, the rate
of Mexican trucks placed out-of-service for vehicle safety violations has declined
from 40 percent of inspections in FY 1999 to 23 percent in FY 2003. By
comparison, the overall rate for U.S. vehicle inspections in FY 2003 was 22



13
     Out-of-service violations are violations that preclude further operation of a commercial motor vehicle by its driver
     for a specified period or until a required condition is met.
14
     Section 350 requires inspection of all long-haul Mexican motor vehicles that do not have a valid CVSA decal (until
     the carrier has permanent authority for 3 years). Such decals expire every 3 months. Section 350 also requires the
     verification of driver licenses for all hazardous materials drivers, all vehicles undergoing a Level I inspection, and 50
     percent of all other long-haul drivers operating beyond the commercial zones. A Level I inspection consists of (1) an
     examination of the driver's credentials, medical certificate and duty status, and (2) examination of the operating
     mechanisms of the vehicle.
                                                                                                                    16


percent.15    This continues a correlation we previously noted16 between the
condition of Mexican trucks entering the United States and the level of inspection
resources at the border. When compared with variations for vehicle out-of-service
rates across U.S. state jurisdictions, the difference between the overall U.S. rate
and the Mexican rate is not statistically significant.

In the past, the out-of-service rate for driver violations, such as driving without a
license, has not differed significantly between U.S. and Mexican carriers. Both
rates ranged from 6 to 8 percent from FY 1999 to FY 2002. However, our
analysis shows that in FY 2003, the Mexican rate was 3.4 percent or about half of
the U.S. rate.


                      Figure 1: Mexican Vehicle Out-of-Service Rates
                      Compared to Number of Inspections Performed
              60%                                                                         160,000

                                                                                          140,000
              50%
                                                                                          120,000
              40%
                                                                                          100,000

              30%                                                                         80,000

                                                                                          60,000
              20%
                                                                        Rate (%)          40,000
              10%
                                                                        Inspections       20,000

               0%                                                                         0
                         1999         2000         2001          2002          2003
                                               Fiscal Year


                                 Source: OIG Analysis of FMCSA Data
Hiring and Training of Federal Enforcement Personnel at the Border. About
95 percent or 259 of the 274 Federal enforcement personnel positions17 authorized
at the southern border were filled as of June 2004. This is an increase of 12 vacant
positions since the last review. However, all vacant positions had hiring actions in

15
     The U.S. and Mexican out-of-service rates were calculated by the OIG using FMCSA data. The rate was calculated
     on interstate and hazardous material carriers. For an explanation of our methodology see Exhibit A.
16
     OIG Report Number MH-2002-094, “Implementation of Commercial Vehicle Safety Requirements at the U.S.
     Mexican Border,” June 25, 2002.
17
     Section 350 referred to all of the positions as “inspectors,” but FMCSA categorized the positions as inspectors,
     auditors, and investigators responsible for providing a full range of safety enforcement functions. These
     enforcement actions include performing driver and vehicle safety inspections, safety audits, and compliance reviews
     and investigations.
                                                                                                             17


process. The 259 positions filled include 129 inspectors, 64 safety auditors, 49
investigators, and 17 supervisors or support staff. All personnel on-board had
received the required training. The Table below identifies the number of people
hired and trained for each of FMCSA’s designated enforcement positions and
shows the trend in hiring since our May 2003 audit.18

             Table: Hiring and Training of Federal Enforcement Personnel

                                                   Hired and                    Hired and
                                                    Trained                      Trained
                Position            Goal        (As of 4/28/2003)            (As of 6/18/2004)
             Inspector              144                139                          129
             Auditor                 67                 65                           64
             Investigator            53                 56                           49
             Supervisor               5                  5                          12*
             Support Staff            5                  6                            5
             Total                  274                271                          259
                                     Source: OIG Analysis of FMCSA Data
           * Supervisors are trained to perform inspections. Included in the
             total of 12 are 5 first line supervisors who also conduct
             inspections.

Our 2003 audit reported that FMCSA had agreements in place with border state
officials to provide inspection coverage at commercial crossings and ensure that
the Act’s safety requirements were met. During our visits to border crossings for
this audit we observed good relationships between Federal and state personnel.

Consistent with the requirements of Section 350, none of the enforcement
personnel hired for the southern border since the last review were experienced
personnel transferred from other parts of the United States. In addition to
performing compliance reviews, safety investigators have been trained to conduct
safety audits and perform safety inspections of vehicles and drivers. Similarly,
auditors have been trained to perform safety audits and vehicle and driver
inspections.

State Safety Inspectors. As of June 2004, the four border states met 90 percent
of their 2004 hiring goals.19 Since our last review, Texas hired and trained 112
additional safety inspectors. Arizona and New Mexico reported no new hires in
2004 because their 2003 goals were met, turnover was low, and the goal did not

18
     OIG Report Number MH-2003-041, “Follow-up Audit on the Implementation of Commercial Vehicle Safety
     Requirements at the U.S.-Mexico Border,” May 16, 2003.
19
     States reported that these positions included law enforcement personnel also trained to conduct inspections.
                                                                                    18


increase in 2004. California had 14 unfilled positions. These 14 positions were
funded with a 2002 Federal grant for $5.3 million but, at the time of our field
visits, state officials told us that the positions were not filled due to state budget
conditions. The positions have since been advertised. FMCSA and California
officials stated that failure to fill these positions would not affect border safety or
enforcement. Presently there are 381 federally-funded state inspectors at the
border.

While the overall staffing situation is satisfactory at this time, FMCSA will also
need to periodically reevaluate its overall resource requirements for the United
States and Mexico border, including levels of inspection staff and their distribution
at crossings for long-haul and commercial zone traffic. This is necessary because
the number of Mexican carriers that will eventually apply for authority to conduct
long-haul traffic, and the crossings that they will use, is unknown.

Adequacy of Inspection Facilities. During our May 25 through June 8, 2004
visits to 14 of the 27 commercial crossings, we found that dedicated inspection
facilities at the crossings were sufficient. These facilities are used for the
inspection of commercial trucks and drivers with authority to operate within the
commercial zones. Dedicated inspection facilities include office space and space
to inspect and place vehicles out of service. Based on FMCSA reports, and our
follow-up work on issues from our last report, the remaining crossings with
inspection facilities were also sufficient.

Our May 2003 report identified two border crossings, in Douglas and San Luis,
Arizona, where a portion of the dedicated out-of-service space was not being used
because the GSA had not completed improvements. During our latest visits, we
determined that GSA had completed the improvements in Douglas and the out-of-
service space was fully operational. GSA reported that improvements in San Luis
were underway in July 2004.

We also previously reported that inspection space is available at the roadside at the
Andrade, California, border crossing, which does not have an inspection facility.
Andrade is a low-volume crossing through which about 2,450 commercial
vehicles enter the United States annually. We found that out-of-service space is
also available at a state inspection facility about 2 miles from the crossing. Based
on reports from California state officials that we gathered during this audit, about
200 inspections occur at Andrade a year under an arrangement by which the
Bureau of Customs and Border Protection detains commercial vehicles and calls
the state inspectors. However, this arrangement has yet to be formalized in an
agreement.

Access to Databases. During our visits to 14 selected commercial crossings, we
found that inspectors could access Mexican and U.S. databases to verify CDLs,
                                                                                 19


license plates, authority to operate in the United States, and U.S. insurance
coverage, although different procedures were used. Hand-held Personal Digital
Assistants were used at numerous locations to access information on Mexican
drivers and operating authority. In some instances, inspectors could access
databases only by contacting dispatch or inspection facilities with electronic
access. The majority of the personnel were aware of FMCSA’s 1-800 telephone
number to verify operating authority and insurance. However, 14 of 42 Federal
and state personnel interviewed were not aware of this capacity until we advised
them of the process.

Conduct of Inspections. Consultants20 employed by the OIG to observe
inspections conducted by Federal and state officials at the southern border
reported that the inspections were generally conducted in accordance with North
American Uniform Driver/Vehicle Inspection criteria. The inspections included
examination of the driver, hours-of-service records, vehicle exterior, and vehicle
undercarriage. However, at one of three locations where inspections were
observed, inspectors did not complete reviews, when required, on the fifth wheel
connector. The fifth wheel is an important connecting device that joins the tractor
with the semi-trailer. Thus, inspections of motor carriers should examine this item
for excessive movement. Our reviews of inspections were limited because the
border was not open to long-haul traffic at the time of our audit. Should long-haul
traffic materialize in the future, we will need to conduct more extensive reviews of
inspections as they specifically relate to long-haul traffic.


Issues Remain to be Addressed to Ensure Full Implementation of
Section 350
While the basic safety infrastructure at the southern border remains in place, and
the out-of-service rate for Mexican carriers has declined, FMCSA needs to address
the following issues to ensure that the requirements of Section 350 are fully
implemented.

• Providing adequate coverage of any future long-haul bus operations.

• Getting all states to adopt and consistently enforce operating authority
  violations.

• Ensuring WIMS are operable.

• Completing testing and ensuring that consistent data are provided to the system
  for monitoring Mexican drivers in the United States.


20
     The qualifications of the consultants are described in Exhibit A.
                                                                                20


Bus Operations. Commercial vehicles, by definition, include both trucks and
buses, but buses are permitted to enter the United States at separate border
crossings and at times when commercial trucks are restricted. Under current
conditions, while buses are inspected at commercial truck crossings, Mexican bus
companies granted long-haul authority could cross the border at locations and
times where insufficient personnel and facilities are in place to verify commercial
driver’s licenses and inspect vehicles with expired CVSA decals—two key Section
350 requirements. Specifically:

• Internal reports prepared by FMCSA, in response to our May 2003 audit, stated
  that at 15 bus crossings at the southern border, FMCSA did not have adequate
  facilities or personnel to meet Section 350 requirements.

• During our visits to 17 of 31 border crossings identified by FMCSA, we
  observed 3 crossings, collocated with truck crossings, where buses could be
  subjected to inspections during all hours of operation, 4 crossings where bus
  traffic crossed but no bus inspections occurred, 5 crossings where inspectors
  were present an average of 2 days a week to conduct bus inspections, and
  5 crossings where inspections were reportedly conducted during special
  operations occurring a couple of times a year.

The number of long-haul bus applicants is a small proportion of the total long-haul
applicants and long-haul bus traffic represents a small proportion of current bus
traffic at the border. As of September 2004, FMCSA had received applications
from 6 bus companies seeking long-haul authority to operate a total of 21 motor
coaches. This represents approximately 1 percent of the applicants for long-haul
authority, as of September 2004.

The leasing of Mexican buses to U.S. carriers for operation in the United States
and beyond the commercial zone is permitted at this time, and the degree to which
buses operating in the United States under these conditions will elect to apply for
long-haul authority is unknown. Based on reports from FMCSA, approximately
302,000 bus entries a year occur at 31 southern bus crossings. According to
FMCSA officials, these primarily represent short-distance, transit-type crossings
within the commercial zone, and they are not related to Section 350 compliance.

FMCSA officials informed us of other arrangements used within the border states
to perform bus inspections. These alternatives included a voluntary compliance
program established for Mexican bus companies to submit to inspections at
selected sites, such as amusements parks, casinos, and a zoo. Officials informed
us that this was more efficient because in most instances there were no passengers
to unload.
                                                                                                                     21


Given issues such as the handling of passengers during inspections, we recognize
that alternative methods for addressing Section 350 requirements for buses may be
appropriate. Section 350 itself makes no specific mention of bus inspection
procedures. However, before granting long-haul authority to buses, FMCSA
should revise its policies to include procedures for inspecting long-haul buses
across all four southern border states. Staffing and facility plans should also be
revised, as necessary, to respond to the issues raised by FMCSA staff and our
observations. In responding to the draft report, FMCSA stated that it will work
closely with bus carriers granted long-haul authority to ensure compliance with
safety regulations and the mandates of Section 350. FMCSA also reported that it
is developing policy directives to ensure that bus inspections and driver checks are
properly handled. According to FMCSA, approved plans and procedures will be
in place by September 30, 2005.

Enforcing Operating Authority. FMCSA’s August 2002 rule required state
enforcement personnel to place a vehicle out of service when the vehicle is found
to be operating without or outside its authority. To begin enforcing the rule, states
needed to adopt the rule through the passage of legislation or by applying state
statutes that allow the state to automatically implement the Federal rule. States
enforce these requirements as a condition for receipt of Motor Carrier Safety
Assistance Program funds, effective September 27, 2005.

As of June 2004, 46 states had adopted the rule and 5 21 had not (see Figure 2). Of
the five, three expect to adopt the rule by early 2005. This is an increase of 15
states from the number reported as having adopted the rule in our May 2003
report, but several large states with significant commercial traffic still have not
adopted the rule.




21
     The five states are Alaska, Michigan, New Jersey, New York, and North Carolina. In this report, states refers to the
     50 states and the District of Columbia.
                                                                                                           22




     Figure 2: States That Have Adopted the FMCSA Operating Authority Rule




Red-Have Not Adopted
Blue-Have Adopted


While adoption of the rule has advanced, discussions with state motor carrier
safety officials in 14 states22 show that problems exist with its implementation in
some states. Only 4 of the 14 states reported being prepared to implement the rule
by placing the vehicles out of service. Also, another four states expressed
concerns about the lack of CVSA criteria and seven expressed the need for more
time to implement the rule or for more guidance from FMCSA. For example:

• In West Virginia, the Deputy Director of the Motor Carrier Section told us that
  drivers without proof of operating authority are cited and fined but are not
  placed out of service because no violation code is available under the out-of-
  service criteria established by the CVSA.

• In Illinois, a state police official told us that state enforcement personnel would
  not place vehicles out of service for operating authority violations because it
  was not part of the CVSA criteria, but enforcement personnel would prohibit
  trucks from moving until the carrier resolves the problem.

22
     Illinois, West Virginia, Colorado, Tennessee, Alabama, Indiana, Texas, Florida, Ohio, Missouri, Louisiana,
     Delaware, Montana, South Dakota.
                                                                                  23


• In Ohio, the State Patrol Enforcement Manager told us that enforcement would
  involve placing the motor carrier out of service, stating further that the lack of
  CVSA criteria was not an issue.

• In Louisiana, a state police official told us that the state legal staff had
  determined that CVSA criteria were not needed to enforce operating authority.

• In Florida, a state official said that they were not enforcing the authority
  because no one knows how to do it and training and guidance are needed.

• In Indiana, a state motor vehicle enforcement official told us that the state is
  not yet enforcing operating authority because it is awaiting further guidance
  from FMCSA. The official was also unclear about how to verify operating
  authority.

CVSA does not agree with the use of the term “out-of-service” in the August 2002
rule and it has not included violations of operating authority in the North
American Inspection Standards developed by FMCSA in conjunction with CVSA.
CVSA petitioned FMCSA in September 2003 seeking a change in terminology in
the enforcement authority rule from “out of service” to “cease operations” for
instances where commercial motor vehicles operate outside their permitted
authority. According to CVSA, the term “out of service” is intended to refer to
vehicles that “by reason of its mechanical condition or loading would likely cause
an accident or breakdown.” According to CVSA, operating outside authority is
not a condition constituting an imminent hazardous condition and should not be
referred to as an out-of-service violation. The FMCSA had not responded to the
petition as of December 9, 2004.

Our discussions with state officials showed that some states would not place
vehicles out of service for operating authority violations because it was not part of
the CVSA criteria, while other states determined that CVSA criteria were not
needed to enforce operating authority. If this issue continues to present an
obstacle to implementation of the August 2002 rule, FMCSA may need to take
action to clarify that, notwithstanding CVSA’s view of when vehicles may be
placed out of service, FMCSA, as the regulator, has determined that Mexican
trucks operating in the United States without or outside their legal authority should
be placed out of service.

In responding to our draft report FMCSA was concerned that our discussion of the
operating authority issue suggested that Federal regulations are secondary to
CVSA interpretations. We are not making that suggestion. FMCSA also
requested that we modify our recommendation to emphasize full compliance with
the out-of-service criteria in the August 2002 rule. Timely action on achieving full
                                                                                                                   24


state compliance with the August 2002 rule will establish nationwide controls
against Mexican carriers that do not comply with Section 350 requirements.

It is difficult to determine the number of Mexican carriers operating outside their
authority. Our analysis of FMCSA’s database of inspections from September
2002 through May 2004 shows 197 inspections in non-border states involving 141
Mexican carriers who are not on the list of Mexican carriers authorized to operate
outside the commercial zone. Although the data provides evidence of Mexican
carriers operating illegally outside the commercial zones, we could not make
reliable estimates as to the magnitude of the problem for two reasons:

• An unknown number of Mexican carriers may qualify to operate outside the
  commercial zone under an exception23 allowing Mexican carriers to transit the
  United States, that is, travel through the United States to Canada, without
  dropping off or picking up goods.

• A number of the inspections or crashes could be inaccurately attributed to
  Mexican motor carriers. For example, after we identified a Mexican carrier
  with multiple crashes on record, FMCSA’s research showed that the crashes
  were erroneously charged to that carrier. With over 2 million inspections and
  100,000 crashes reported annually, additional errors of this type could occur.
  Our 2004 SafeStat report24 estimated that errors occurred in approximately
  13 percent of the crash transactions and 7 percent of the inspection transactions
  reported on interstate carriers for a 6-month period.

Weigh-in-Motion Scales. We confirmed that, as required by Section 350, WIMS
are in place at the 10 highest volume crossings.25 However, not all scales are
working. These scales are used to screen vehicles with weight violations although
a static scale must be used to take enforcement action against a carrier for being
overweight. WIMS were operational at 6 of the 10 inspection facilities: Calexico
and Otay Mesa in California; Eagle Pass, El Paso Bridge of the Americas, and
Laredo World Trade Bridge in Texas; and Nogales in Arizona. However, WIMS
were not working at four Texas inspection facilities: Pharr, Ysleta, Veterans, and
Laredo Columbia. After our visit, state officials at Veterans and Laredo Columbia
told us that WIMS had been repaired and were operational as of July 30, 2004.
We were informed that the WIMS at the Pharr Crossing was repaired in August
2004 and that the WIMS at Ysleta was pending the construction of the state
inspection facility at that location. All 14 crossings we visited had static scales.


23
   49 U.S.C. Section 13501 (This provision provides DOT's jurisdiction over motor carrier operating authority, but does
   not include transportation between two foreign countries.)
24
   OIG Report Number MH-2004-034, “Improvements Needed in the Safety Status Measurement System,”
   February 13, 2004 (SafeStat).
25
   We reconfirmed through site visits to nine crossings and reports from the tenth crossing
                                                                                              25


Safety Monitoring System for Drivers and Carriers. We confirmed that
FMCSA’s automated safety monitoring system for Mexican carriers required by
Section 350 prior to granting long-haul authority is operational. The automated
system is designed to: (1) identify carriers requiring compliance reviews or letters
of corrective action; (2) generate corrective action letters to send to the carriers;
and (3) create a carrier history of violations and dates of corrective actions.

However, in the system for monitoring Mexican drivers, referred to as the 52nd
state system, four states26 had not yet tested the system to ensure that they could
send Mexican driver convictions to the database. In addition, problems exist with
populating the databases. For example, as of June 2004, California had provided
only 19 convictions to the database, a situation state officials attributed to initial
problems with the communications interface. Texas, by contrast, had over 4,000
convictions listed, although an FMCSA official said that the list included a
number of non-Mexican foreign drivers. The correct operation of this monitoring
system is important. It allows the United States to prevent Mexican drivers from
entering the United States if they have incurred violations in the United States,
which subjected them to disqualification rules applicable to U.S. Commercial
Driver’s License (CDL) holders. For example, two excessive speeding violations
within a 3-year period are grounds for a 60-day disqualification. The system will
also alert U.S. officials if Mexico has disqualified a Mexican driver’s CDL.


ADDITIONAL CONCERNS
Five additional areas do not pose specific Section 350 compliance issues, but
should be dealt with should long-haul authority be granted to Mexican motor
carriers.

Data Quality Issues. In our February 2004 report on the SafeStat System,27 we
reported on problems with the quality of the data in SafeStat that FMCSA used to
rank motor carriers for review. Key among those problems were carriers reporting
zero vehicles (referred to as power units) or zero drivers, and carriers that failed to
update motor carrier census forms within the 2 years required by law. Errors in
these data elements inhibit FMCSA’s ability to identify carriers for compliance
reviews and to identify high-risk carriers using SafeStat.

Based on an analysis of data from our prior audit, Mexican motor carriers show a
greater number of these data quality problems, on average than U.S. carriers,
although data quality issues are still a concern for U.S. carriers. For example:

26
     Maine, Oregon, Pennsylvania, and Virginia.
27
     OIG Report Number MH-2004-034, “Improvements Needed in the Safety Status Measurement System,”
     February 13, 2004.
                                                                                                                   26


• 67 percent of Mexican motor carriers had not submitted updated census forms,
  versus 42 percent for U.S. carriers.

• 51 percent of Mexican motor carriers reported having zero power units versus
  10.3 percent for U.S. carriers.

• 52 percent of Mexican carriers showed zero drivers, as opposed to 14.5 percent
  for U.S carriers.

Fortunately, in the case of Mexican carriers, FMCSA has an opportunity to correct
these data errors during the pre-authority safety audits. FMCSA has recognized
the need to obtain accurate data in its rules on the application process. Officials
should take action during the application process for long-haul Mexican carriers to
ensure that carriers provide complete and accurate information before FMCSA
grants operating authority. FMCSA should also undertake education efforts to
ensure that any future crashes involving Mexican carriers are accurately and
completely reported. We have previously reported on problems with the
completeness of reports to FMCSA on crashes, and FMCSA has taken action to
improve data reporting and establish improved procedures for correcting data
errors.

Insurance Coverage. Mexican carriers with operating authority limited to the
commercial zone are not required to provide insurance data to the FMCSA
database, but these commercial-zone carriers are required to carry proof of
insurance. We observed that inspectors check this documentation during
inspections. In contrast, Mexican carriers seeking future long-haul authority are
required to meet the same requirements as U.S. carriers and provide proof of valid
insurance with a company licensed in the United States for inclusion in FMCSA's
database. The provision of insurance information to the database can be used to
monitor whether insurance coverage for the carrier has been cancelled. Inspectors
at the sites visited had access to the FMCSA database, which could be used to
verify insurance coverage.

However, about 1,300 Mexican motor carriers previously granted approval to
operate beyond the commercial zones are not required to provide insurance
information to the FMCSA database, although they are required to carry evidence
of insurance on the vehicle.28 The 1,300 carriers may voluntarily provide this
information, but our review of records showed that 98 percent had not. Those
without insurance information on record included 19 of 20 carriers that received
roadside inspections outside the four border states since September 2002. An
FMCSA official stated that the 1,300 carriers would be required to re-apply for

28
     These carriers, who are at least 55 percent U.S.-owned, were allowed to operate beyond the commercial zone as long
     as the drivers had certificates of insurance when operating the vehicles.
                                                                                  27


authority and provide insurance information when long-haul applications are
processed. In our view, if the application process for long-haul carriers does not
begin within 1 year, FMCSA should initiate action to require these carriers to
provide this insurance information to the database.

Our discussions with non-governmental organizations and an insurance industry
representative, as well as information on an enforcement investigation at one
border state indicate that insurance companies may be reluctant to offer coverage
for Mexican-based carriers because of a lack of information concerning the
carriers’ historical operations and financial position. FMCSA should be vigilant to
ensure that carriers having difficulties acquiring insurance do not resort to
fraudulent insurance.

Drug and Alcohol Testing. Section 350 states that FMCSA must conduct a
safety audit of Mexican motor carriers seeking long-haul authority that includes
verification that the carrier has a drug and alcohol testing program consistent with
CFR, Title 49, Part 40. Because long-haul authority has not been granted to any
Mexican motor carriers and because there have been no safety audits of long-haul
applicant carriers, we could not assess the implementation of this requirement.
We did find that safety audits conducted of Mexican carriers operating within the
commercial zone do address drug and alcohol testing requirements. These
requirements include the use of drug testing labs certified by HHS.

Mexico does not have a certified drug testing lab at this time. DOT officials
informed us that until such a lab meets HHS certification standards, drug test
collection facilities in Mexico are sending specimens to certified labs in the United
States for processing. DOT's Office of Drug and Alcohol Policy and Compliance
(ODAPC) is working with FMCSA and other DOT staff to develop an internal
plan for addressing drug and alcohol testing issues, and a memorandum of
understanding has been established with Mexico in the drug and alcohol testing
area. DOT agencies, through inspections and audits, periodically review U.S.
collection facilities to ensure compliance with established protocols. Collection
facilities in Mexico are not reviewed by U.S. officials. The need for a certified lab
in Mexico will intensify, and the need to have controls at collection sites will
increase, as the number of Mexican motor carriers seeking long-haul authority
increases. FMCSA should continue its work with ODAPC and other DOT staff to
ensure that drug and alcohol testing issues, such as the establishment of sufficient
controls at collection sites, are adequately addressed.

Border Crossing Inspection Facilities. Our May 2003 report identified five
border crossings where the Bureau of Customs and Border Protection had moved
or planned to move FMCSA’s dedicated inspection and out-of-service spaces.
Our 2004 visits found that plans to move inspection and out-of-service spaces for
one border crossing in Texas were still in process, but the adequacy of the
                                                                                   28


replacement facilities was unclear. At the Eagle Pass crossing, the Bureau of
Customs and Border Protection planned to displace the FMCSA inspection facility
as part of the redesign of the Customs compound within the next year. Because
the plans did not include new space for FMCSA inspections, FMCSA will have to
work with GSA to ensure that a comparable inspection facility at Eagle Pass is
constructed. This problem with ensuring adequate inspection space at Eagle Pass
points to the general need for FMCSA to work with GSA to ensure the number of
inspection and out-of-service spaces required in its 18 executed agreements and
leases are provided and that any new inspection facility is comparable to current
facilities. In responding to our draft report, FMCSA reported that it is continuing
to work with GSA to meet its future needs at all border locations.

Certification of Compliance with Federal Motor Vehicle Safety Standards.
FMCSA and the National Highway Traffic Safety Administration (NHTSA) have
complementary responsibilities related to vehicle safety. FMCSA has authority to
set safety requirements for motor carriers operating in interstate commerce.
FMCSA’s authority does not extend to setting standards for manufacturers of
commercial motor vehicles to ensure that they contain necessary safety features.
Such standards, known as Federal Motor Vehicle Safety Standards (FMVSS), are
established by NHTSA under the National Traffic and Motor Vehicle Safety Act
of 1966. Based on an interpretation letter issued by NHTSA in 1975, Canadian
and Mexican motor carriers are responsible for complying with the FMVSS before
operating commercial motor vehicles in the United States.

In March 2002, FMCSA proposed a rule to require carriers operating commercial
motor vehicles in the United States to display a label that the vehicle was certified
by the manufacturer as meeting all applicable Federal safety requirements.
FMCSA noted that without the rule, uncertified commercial vehicles that did not
meet all of the applicable safety standards may not be identified and subjected to
effective enforcement action. As of November 29, 2004, the rule was under
review by the Office of Management and Budget.

The proposed rule granted an exception for Canadian and Mexican motor carriers,
which allows vehicles legally operating in the United States when the rule goes
into effect to operate without meeting the certification requirement for 24 months.
Commenters on the proposed FMCSA rule have argued that the exception violates
the U.S. law on certification and that vehicles that are not certified as meeting U.S.
production safety standards should not be permitted to enter the country.
FMCSA’s position is that the 24-month phase in period would be needed to allow
motor carriers sufficient time to comply. FMCSA has also noted that even without
the new rule all commercial motor vehicles operating in interstate commerce must
comply with the requirements of the Federal Motor Carrier Safety regulations,
including those that cross-reference the FMVSS. However, the proposed rule, if
                                                                                  29


adopted, would allow officials to cite Mexican motor carriers operating in the
United States for failing to display documentation showing compliance with the
FMVSS. While compliance with the FMVSS is not specifically cited in Section
350, it is important for the final rule to be issued if increasing numbers of Mexican
commercial vehicles will be operating in the United States. The Conference
Agreement to the FY 2005 Omnibus Appropriations Act included language
prohibiting the use of funds to issue or implement a rule with the phase-in period.


RECOMMENDATIONS
We recommend that the FMCSA Administrator:

1. Take action to meet congressional preconditions to opening the U.S.-Mexico
   border by:

   a. Providing support to Department officials, as needed, to facilitate the
      establishment of a memorandum of understanding or some other agreement
      with Mexico on the conduct of on-site reviews.

   b. Providing support to Department officials, as needed, to facilitate the
      establishment of an agreement with Mexico regarding equivalent
      requirements for Mexican hazardous material drivers. Additionally,
      FMCSA should not permit vehicles owned or leased by Mexican motor
      carriers to haul hazardous materials outside the commercial zone until such
      an agreement is in place.

2. Fully implement the requirements of Section 350 by:

   a. Revising policies, procedures, staffing, and facility plans at the southern
      border to address the coverage of buses in a manner consistent with
      FMCSA policy on vehicle and driver inspections for commercial vehicles
      granted long-haul authority.

   b. Ensuring that all states adopt and fully comply with the August 2002 rule
      on enforcing operating authority through (1) resolution of concerns about
      the use of out-of-service terminology in the enforcement authority rule, (2)
      guidance and/or training support to states on the implementation of the rule,
      and (3) continued work with the five states that have not adopted the rule.

   c. Identifying actions and milestones needed to make all WIMS fully
      operable.

   d. Ensuring that a comprehensive system for monitoring Mexican drivers is
      established by (1) setting milestones for all states to test the 52nd state
                                                                                30


      system and (2) reviewing reports on the data states provide to the 52nd state
      system to correct any inconsistencies in the data.

3. Take the following action to avoid future problems should long-haul authority
   be granted to Mexican carriers:

   a. Establish procedures during pre-authority safety audits to ensure that
      Mexican motor carriers applying for long-haul authority provide up-to-date
      and accurate information on power units and drivers for inclusion in
      SafeStat calculations.

   b. If the application process does not begin within one year, initiate action to
      require that those Mexican carriers presently allowed to operate outside the
      commercial zones provide insurance information to the FMCSA database.

   c. Establish milestones, in conjunction with ODAPC and other DOT staff, to
      ensure that drug and alcohol testing issues, such as the establishment of
      sufficient controls at Mexican collection sites, are adequately addressed.


MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
We provided FMCSA a draft of this report on September 20, 2004. In its
comments, provided on October 20, 2004 and December 10, 2004, FMCSA
identified actions taken on each of the recommendations and stated that it would
continue to deal with these issues and others as they are brought to its attention.
However, FMCSA expressed concerns that the scope of the report was too broad.
FMCSA stated that issues not specifically related to the two unmet preconditions
to opening the border were not appropriate for the report and preferred that
recommendations on these issues should be relegated to an appendix in the final
report.

We appreciate FMCSA’s comments and have revised the report to emphasize that
recommendation 1 is associated with preconditions to opening the border that are
not being met at this time. The report, however, continues to discuss other issues
impacting full compliance with Section 350, as well as issues that will need
attention should long-haul authority be granted to Mexican motor carriers.

FMCSA also provided technical comments on the draft report, which we
incorporated into the final report, as appropriate. The full text of FMCSA’s
comments are provided in the Appendix. FMCSA's comments on specific
recommendations and OIG responses are summarized below.
                                                                              31


FMCSA Comments. For recommendation 1, which called for taking action to
meet two unmet congressional preconditions to opening the U.S.-Mexico border,
FMCSA commented that actions are underway. For on-site reviews (1.a.),
FMCSA continues to work closely with Department and other officials to ensure
that reviews will be conducted in a legal manner and with the knowledge of the
appropriate Mexican government officials. For the agreement with Mexico
regarding equivalent requirements for Mexican hazardous material drivers (1.b.),
FMCSA stated that TSA will have the lead in the negotiations and FMCSA will
continue to provide technical assistance to TSA, as requested, on the development
of the agreement.

OIG Response. We consider FMCSA's comments on recommendation 1 to be
responsive. We will follow up on the status of these agreements or understandings
in our next review.

FMCSA Comments. For recommendation 2, regarding the need to close
remaining gaps in meeting Section 350 requirements for bus operations, enforcing
operating authority, WIMS, and a monitoring systems for Mexican drivers,
FMCSA’s comments discussed a range of actions.

• For bus operations (2.a.), FMCSA agreed to work closely with passenger
  carriers granted authority to operate beyond the commercial zones to ensure
  that the passenger-carrying commercial motor vehicles are in compliance with
  the mandates of Section 350. FMCSA will also meet with the Bureau of
  Customs and Border Protection to identify mutually agreeable operational
  procedures at the major long-haul bus crossings and continue to work with its
  state partners to inspect passenger carriers. The approved plans and procedures
  will be in place no later than the end of FY 2005.

• Regarding enforcement of operating authority (2.b.), FMCSA indicated that the
  August 2002 rule on enforcing operating authority is being implemented and
  that the recommendation should be changed to emphasize full compliance with
  the out-of-service terminology in the enforcement authority rule.

• On WIMS (2.c.), FMCSA commented that WIMS are funded; the states are
  responsible for maintaining WIMS; and the systems are to be operational
  except for routine maintenance, unforeseen breakdowns, or improvements to
  the inspection areas. FMCSA will require each of the three border states with
  WIMS to include a maintenance program for the system in its Commercial
  Vehicle Safety Plans.

• Regarding improvements to the system for monitoring Mexican drivers (2.d.),
  FMCSA commented that the 52nd system was fully implemented but, as with
  all data systems, FMCSA will look for ways to improve the quality and
                                                                                32


   timeliness of the data. Specifically, FMCSA state directors will meet with the
   states to explain and correct inconsistencies in the data by the end of FY 2005.

OIG Response. We consider FMCSA's comments on recommendation 2 to be
responsive, and we will follow up on planned actions as appropriate. Based on
FMCSA comments, we revised the recommendation on enforcing operating
authority (2.b.) to emphasize the need for full state compliance with the
August 2002 rule and request formal comment on this revised recommendation in
response to the final report.

FMCSA Comments. For recommendation 3, regarding areas that do not pose
specific Section 350 compliance issues, but which will need attention should long-
haul authority be granted to Mexican motor carriers, FMCSA’s comments
addressed the three specific actions we recommended.

• Regarding the need to ensure that Mexican motor carriers provide up-to-date
  and accurate information for inclusion in SafeStat calculations (3.a.), FMCSA
  stated that information is being provided by Mexican carriers as part of the
  application process and will be verified by FMCSA during safety audits.
  Additionally, all Mexican carriers receiving authority to operate beyond the
  commercial zones are also subject to compliance reviews and safety
  monitoring for at least 18 months after receiving provisional authority to
  operate.

• On the issue of the provision of insurance information by Mexican carriers
  currently allowed to operate outside the commercial zone (3.b.), FMCSA
  commented that these carriers are required to carry proof of insurance and that
  the inclusion of information in the database issue is being addressed as
  FMCSA receives and begins to process the applications.

• On the drug and alcohol testing issue (3.c.), FMCSA stated that it will meet
  with ODAPC at least semiannually, and with appropriate Mexican government
  officials, in conjunction with ODACP, to ensure proper procedures are
  followed at the collection sites in Mexico. In addition, attention to controlled
  substance and alcohol testing requirements will be emphasized during required
  safety audits.

OIG Response. We consider the FMCSA comments on recommendation 3 to be
responsive and we will follow up as needed in future reviews.

ACTION REQUIRED

We request that FMCSA provide written comments within 30 days containing its
formal response to recommendation 2.b., given the modifications made to that
                                                                           33


recommendation in the final report. Other actions taken and planned by the
Department are reasonable, subject to the follow-up requirements in DOT Order
8000.1C.

We appreciate the courtesies and cooperation provided by your staff during our
review. If you have any questions concerning this report, please call me at
(202) 366-1992 or Debra Ritt, Assistant Inspector General for Surface and
Maritime Programs, at (202) 493-0331.

                                      #
cc:   The Secretary
      Deputy Secretary
                                                                                34




EXHIBIT A. OBJECTIVES, SCOPE, AND
METHODOLOGY

OBJECTIVES
The primary objective of this audit was to verify whether FMCSA continues to
have the staff, facilities, equipment, and procedures in place to comply with
provisions in the FY 2002 Transportation and Related Agencies Appropriations
Act. Our specific audit objectives were to determine the extent to which FMCSA
has complied with Section 350 (c) (1) (A) through (H) of the FY 2002 Act.
Section 350 requires that:

• All new inspector positions funded under the Act be filled and the inspectors
  fully trained.

• Each inspector conducting on-site compliance reviews in Mexico, consistent
  with the safety fitness evaluation procedures set forth in Part 385 of Title 49,
  Code of Federal Regulations, is fully trained as a safety specialist.

• Full safety compliance reviews are conducted before the carrier is granted
  permanent authority to operate beyond the commercial zones.              This
  requirement cannot be met by transferring experienced inspectors from other
  parts of the United States to the U.S.-Mexico border, undermining the level of
  inspection coverage and safety elsewhere in the United States.

• Adequate capacity exist at each U.S.-Mexico border crossing used by Mexican
  long-haul motor carrier commercial vehicles to conduct a sufficient number of
  vehicle safety inspections and to accommodate vehicles placed out of service.

• A policy be implemented to ensure compliance with U.S. hours-of-service
  rules by Mexican long-haul carriers.

• Mexico’s information infrastructure be sufficiently accurate, accessible, and
  integrated with that of U.S. law enforcement authorities to allow verification of
  the status and validity of CDLs, vehicle registrations, operating authority, and
  insurance of Mexican long-haul carriers while operating in the United States.
  Also, adequate telecommunications links exist at all U.S.-Mexico border
  crossings used by Mexican long-haul carriers and in mobile enforcement units


Exhibit A. Objectives, Scope, and Methodology
                                                                                                                 35


       operating adjacent to the border to ensure easy and quick verification of this
       information.

• An accessible database exists containing sufficiently comprehensive data to
  allow for the safety monitoring of all Mexican motor carriers and drivers that
  apply for long-haul authority.

• Measures are in place to enable U.S. law enforcement authorities to ensure the
  effective enforcement and monitoring of license revocation and licensing
  procedures of Mexican motor carriers.

SCOPE AND METHODOLOGY
We verified staffing, facility improvements (including WIMS), electronic access,
and other actions taken by FMCSA and the states to comply with requirements
established by the FY 2002 Act at 27 commercial border crossings along the U.S.-
Mexico border.29 We also observed bus crossings co-located with or adjacent to
crossings.

We conducted verification work through comprehensive field reviews of
14 statistically selected crossings and through selected checks at the remaining
13 crossings. To select the 14 crossings for comprehensive reviews, we grouped
the 27 crossings into 5 geographic regions and randomly selected 2 to 3 crossings
from each region, with a larger proportion selected from crossings with the
greatest number of truck entries in FY 2003. The 14 selected crossings cover
approximately 90 percent of the 4.3 million truck entries in FY 2003.

To determine whether inspector, auditor, and investigator positions have been
filled and whether those personnel have been trained, we analyzed lists of
personnel selected to fill new positions since the prior audit, confirmed personnel
on-board during site visits, and reviewed documentation on training completed.
We also monitored training for new hires by examining records from the FMCSA
training academy. To determine whether FMCSA staff was transferred to the
southern commercial border crossings from other parts of the United States, we
identified personnel hired since the prior audit and validated, through examination
of personnel records, that the staff had not been transferred.

Through site visits, review of management reports, and contacts with GSA,
FMCSA, and state officials, we determined whether dedicated inspection space,

29
     We contacted officials at two crossings in Texas, Fabens/El Paso and Falcon Heights Dam, where commercial
     volume is not sufficient to merit full-time inspection coverage or dedicated inspection facilities. At these two
     crossings, we verified whether inspectors from the U.S. Customs and Border Protection were aware of the
     appropriate procedures to detain Mexican long-haul commercial vehicles and notify Federal safety inspectors.

Exhibit A. Objectives, Scope, and Methodology
                                                                                 36


places for vehicles that were placed out-of-service, and office spaces were
completed and in use. Three safety consultants employed by the OIG also
observed inspections at three major border crossings to determine whether the
inspections conformed to the North American Uniform Driver/Vehicle Inspection
criteria.

We did not re-verify the accuracy of the Mexican CDLs and vehicle registration
databases, which we verified in April 2002. To determine whether inspectors
could access U.S. and Mexican databases, we conducted tests at Columbus, New
Mexico, and 14 statistically selected commercial border crossings and with U.S.
state law enforcement authorities (mobile units) operating along the U.S.-Mexico
border. We observed a demonstration of the carrier safety monitoring system to
validate its continued operation.    In June 2002, we reported that the safety
monitoring system for commercial drivers was operational and did not re-verify
that system during this follow-up audit. However, we reviewed reports to identify
the extent to which states had provided driver violations or test information to the
contractor operating the system and to discuss inconsistencies in the population of
the database. We reviewed and analyzed FMCSA’s August 2002 operating
authority rule, as well as related policies, and surveyed Federal and state
authorities regarding implementation of the rule.

To determine FYs 1999 through 2001 out-of-service rates for inspections
conducted on U.S. and Mexican carriers, we obtained statistics from a prior OIG
report. To develop U.S., Canadian, and Mexican inspection records for FY 2002
and FY 2003, we obtained and analyzed data from the Motor Carrier Management
Information System (MCMIS). This analysis included the matching of inspection
records to the MCMIS census table and to the address table with the current
physical address for the carrier. The snapshot of data was taken on May 11, 2004
and only active and inactive interstate and intrastate hazardous material (hazmat)
carriers were selected for analysis. To determine Mexican inspections in non-
border states, we included inspection records since September 27, 2002 and
excluded inspection records in the states of California, Texas, New Mexico, and
Arizona. Our statistician conducted a T-test with SPSS (Statistical Package for the
Social Sciences) software to determine if the difference between the FY 2003
overall U.S. out-of-service rate and the Mexican out-of-service rate was
statistically significant when compared with variations across U.S. states for
inspections of U.S. vehicles. The difference in our inspection analysis compared
to the analysis performed by the Volpe National Transportation Center may be
attributed to a more recent snapshot, selection based on fiscal year versus calendar
year and the inclusion of inactive carriers.

In addition, we interviewed FMCSA officials concerning the need for and
impediments to reaching an agreement with Mexico allowing on-site safety

Exhibit A. Objectives, Scope, and Methodology
                                                                                37


examinations. We reviewed regulations and interviewed Office of the Secretary
(OST), FMCSA, and TSA officials concerning the need for an agreement with
Mexico concerning hazardous material requirements for Mexican drivers of
hazardous materials. This analysis focused on new background requirements for
hazardous materials endorsements brought about by the USA PATRIOT Act. We
did not examine the basis for the 1991 agreement between the United States and
Mexico that CDLs in each country would be treated as equivalent or assess the
impact, if any, of other changes in U.S. CDL requirements since 1991. U.S. states
have until September 2005 to implement a number of new CDL requirements
contained in the Motor Carrier Safety Improvement Act of 1999.

We analyzed licensing and insurance databases and compared them to lists of
carriers authorized to operate outside the commercial zone and discussed the
requirements for disclosure of insurance coverage with FMCSA staff and outside
parties. We discussed the need for FMCSA enforcement of Federal Motor
Vehicle Safety Standards with FMCSA and outside parties.

We used computer-generated data from FMCSA’s MCMIS to develop descriptive
statistics of motor carriers and motor carrier inspection activity and to identify
Mexican motor carriers operating outside the border states. We did not assess the
general and application controls for this system. We did, however, conduct
selected tests of the data that included checks to ensure the data we analyzed
accurately reflected the information contained in FMCSA’s database at the time of
the analysis. Also, to a reasonable extent, we used reports generated by the Volpe
Transportation System Center and data queries to cross-check our results to
identify material differences. The external data provided do not provide the sole
support for our objectives; therefore, we consider the data presented on inspection
out-of-service rates to be sufficiently reliable for the corroborative purposes for
which it was used. As detailed in the report, we could not make reliable estimates
as to the magnitude of Mexican motor carriers operating outside the border states
because of the unknown number of Mexican carriers that may qualify to operate
outside the commercial zone when traveling directly to Canada and given error
rates in inspection and crash data obtained during prior audit work. Information
on the quality of data provided by Mexican motor carriers was obtained by
analyzing data obtained for our audit on “Improvement Needed in the Motor
Carrier Safety Status Measurement System,” Report Number MH-2004-034,
February 13, 2004.

The OIG retained three consultants with experience in motor carrier safety and
inspections. These individuals have an average of 30 years of law enforcement
and vehicle inspection experience. They have held executive positions in motor
safety organizations and participated on various state committees on matters
concerning motor carriers. Also, they have developed or administered training

Exhibit A. Objectives, Scope, and Methodology
                                                                                38


programs on vehicle safety inspections, North American Standard level 1
inspections, hazardous materials, drug recognition, uniform fine schedule, civil
penalty assessment procedures, and covert defect verification programs.

We conducted the audit from May through September 2004 in accordance with
Government Auditing Standards, as prescribed by the Comptroller General of the
United States and included tests of internal controls as were considered necessary.




Exhibit A. Objectives, Scope, and Methodology
                                                                                39




EXHIBIT B. PRIOR AUDIT COVERAGE

OIG Report Number MH-2003-041, Follow-up Audit on the Implementation
of Commercial Vehicle Safety Requirements at the U.S.-Mexico Border,
May 16, 2003. We reported that FMCSA had substantially completed the actions
necessary to meet Section 350 requirements, although the report noted several
incomplete items in need of additional action. Specifically, FMCSA needed to fill
3 enforcement personnel vacancies to reach the target of 274; complete an
agreement at one of 25 border crossings to permit detaining of commercial
vehicles; and ensure states adopt FMCSA’s rule authorizing their enforcement
personnel to take action when encountering a vehicle operating without authority.

OIG Report Number MH-2002-094, Implementation of Commercial Vehicle
Safety Requirements at the U.S.- Mexico Border, June 25, 2002. We reported
that FMCSA made substantial progress toward meeting the FY 2002
Transportation and Related Agencies Appropriations Act’s requirements to hire
and train inspectors, establish inspection facilities, and develop safety processes
and procedures for Mexican long-haul carriers. FMCSA proposed to complete,
within 60 days, those actions that were in process and planned to meet the Act’s
requirements, except the hiring and training of safety investigators and training
supervisors.

Government Accountability Office (formerly General Accounting Office)
Report Number GAO-02-238, North American Free Trade Agreement:
Coordinate Operational Plan Needed to Ensure Mexican Trucks’ Compliance
with U.S. Standards, December 21, 2001. GAO found that the DOT did not have
a fully developed or approved operational plan in conjunction with border states to
ensure that Mexican-domiciled carriers comply with U.S. safety standards.

OIG Report Number MH-2001-096, Motor Carrier Safety at the U.S.-Mexico
Border, September 21, 2001. We recommended that FMCSA strengthen safety
controls at the border in the areas of staffing, safety reviews and inspections,
enforcement, facilities, rulemakings, and outreach.

OIG Report Number MH-2001-059, Status of Implementing the North
American Free Trade Agreement’s Cross-Border Trucking Provisions,
May 8, 2001. We found that (1) the percentage of Mexican trucks removed from
service because of serious safety violations declined from 44 percent in FY 1997
to 36 percent in FY 2000; (2) FMCSA increased the authorized number of
inspectors at the southern border from 13 in FY 1998 to 60 in FY 2001, and
requested 80 additional enforcement personnel in its FY 2002 budget request; and

Exhibit B. Prior Audit Coverage
                                                                                 40


(3) there had been few needed improvements to inspection facilities used by
Federal and state commercial vehicle inspectors at border crossings.

OIG Report Number TR-2000-013, Mexico-Domiciled Motor Carriers,
November 4, 1999 We found that Mexico-domiciled motor carriers were
operating improperly in the U.S. and violating U.S. statutes either by not obtaining
operating authority or by operating beyond the scope of their authority.

OIG Report Number TR-1999-034, Motor Carrier Safety Program for
Commercial Trucks at U.S. Borders, December 28, 1998. We found that the
actions in preparation for opening the U.S.-Mexico border to Mexican long-haul
trucks did not provide reasonable assurance in the near term that trucks enter the
U.S. will comply with U.S. safety regulations. With the exception of California,
neither the Federal Highway Administration nor the states’ plans provided for an
adequate presence of inspectors at border crossings for trucks currently operating
in the commercial zones.

FMCSA has taken action to satisfy the majority of the recommendations cited in
the above reports.




Exhibit B. Prior Audit Coverage
                                                              41




EXHIBIT C. ACTIVITIES VISITED OR CONTACTED
UNITED STATES DEPARTMENT OF TRANSPORTATION
Office of the Secretary, Washington, DC
       Office of General Counsel
       Office of International Transportation and Trade

Bureau of Transportation Statistics


FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION (FMCSA)
Headquarters, Washington, DC

State FMCSA Division Offices
       Phoenix, Arizona (visited)
       Sacramento, California (visited)
       Albuquerque, New Mexico (visited)
       Austin, Texas (visited)
       San Diego, California, Transborder Office (visited)
       All state FMCSA offices

FMCSA Audit Offices
    Douglas, Arizona
    Nogales, Arizona
    Calexico, California
    San Diego, California
    Brownsville, Texas
    Eagle Pass, Texas
    El Paso, Texas
    Laredo, Texas

FMCSA Training Offices
    National Training Center, Arlington, Virginia

UNITED STATES DEPARTMENT OF HOMELAND SECURITY
Office of Inspector General, Washington, DC
Transportation Security Administration, Washington, DC
United States Customs and Border Protection, Washington, DC
       Office of Field Operations
       Office of Policy and Planning

Exhibit C. Activities Visited or Contacted
                                                      42


      Arizona Ports of Entry
            Douglas
            Lukeville
            Naco
            Nogales
            San Luis
            Sasabe

      California Ports of Entry
             Andrade, Winterhaven
             Calexico
             Otay Mesa
             San Ysidro
             Tecate

      New Mexico Ports of Entry
           Columbus
           Santa Teresa

      Texas Ports of Entry
            Columbia, Laredo
            Del Rio
            Eagle Pass
            El Paso Bridge of the Americas, El Paso
            El Paso Paso del Norte, El Paso
            El Paso Ysleta, El Paso
            Fabens
            Hildalgo-Reynosa, Hildalgo
            Lincoln-Juarez, Laredo
            Los Indios, Brownsville
            Pharr
            Presidio
            Progreso
            Falcon Heights Dam, Falcon
            Roma
            Veterans, Brownsville
            World Trade Bridge, Laredo

GENERAL SERVICES ADMINISTRATION
Headquarters, Washington, DC
Border Stations Center, Fort Worth, Texas



Exhibit C. Activities Visited or Contacted
                                                                              43


STATE OFFICES
Arizona
      Department of Public Safety, Commercial Vehicle Enforcement Bureau,
      Phoenix
      Department of Transportation, Motor Vehicle Division, Phoenix

California
       California Highway Patrol, Commercial Vehicle Section, Sacramento

New Mexico
     Department of Public Safety, Motor Transportation Division, Santa Teresa

Texas
        Department of Public Safety, Commercial Vehicle Enforcement, Austin

NON-GOVERNMENT
Commercial Vehicle Safety Alliance, Washington, DC
TML Information Services, Forest Hills, New York
Public Citizen, Washington, DC
Advocates for Highway and Auto Safety, Washington, DC
American Insurance Association, Washington, DC
American Trucking Associations, Alexandria, Virginia




Exhibit C. Activities Visited or Contacted
                                                                              44




EXHIBIT D. TEXT OF SECTION 350

     SEC. 350. SAFETY OF CROSS-BORDER TRUCKING BETWEEN
     UNITED STATES AND MEXICO. (a) No funds limited or appropriated in
     this Act may be obligated or expended for the review or processing of an
     application by a Mexican motor carrier for authority to operate beyond
     United States municipalities and commercial zones on the United States-
     Mexico border until the Federal Motor Carrier Safety Administration—

           (1)(A) requires a safety examination of such motor carrier to be
           performed before the carrier is granted conditional operating
           authority to operate beyond United States municipalities and
           commercial zones on the United States-Mexico border;

           (B) requires the safety examination to include--
                  (i) verification of available performance data and safety
                  management programs;

                  (ii) verification of a drug and alcohol testing program
                  consistent with part 40 of title 49, Code of Federal
                  Regulations;

                  (iii) verification of that motor carrier's system of compliance
                  with hours-of-service rules, including hours-of-service
                  records;

                  (iv) verification of proof of insurance;

                  (v) a review of available data concerning that motor carrier's
                  safety history, and other information necessary to determine
                  the carrier's preparedness to comply with Federal Motor
                  Carrier Safety rules and regulations and Hazardous Materials
                  rules and regulations;

                  (vi) an inspection of that Mexican motor carrier's commercial
                  vehicles to be used under such operating authority, if any
                  such commercial vehicles have not received a decal from the
                  inspection required in subsection (a)(5);



Exhibit D. Text of Section 350
                                                                              45


                 (vii) an evaluation of that motor carrier's safety inspection,
                 maintenance, and repair facilities or management systems,
                 including verification of records of periodic vehicle
                 inspections;

                 (viii) verification of drivers' qualifications, including a
                 confirmation of the validity of the Licencia de Federal de
                 Conductor of each driver of that motor carrier who will be
                 operating under such authority; and

                 (ix) an interview with officials of that motor carrier to review
                 safety management controls and evaluate any written safety
                 oversight policies and practices.

           (C) requires that--
                  (i) Mexican motor carriers with three or fewer commercial
                  vehicles need not undergo on-site safety examination;
                  however 50 percent of all safety examinations of all Mexican
                  motor carriers shall be conducted onsite; and

                 (ii) such on-site inspections shall cover at least 50 percent of
                 estimated truck traffic in any year.

           (2) requires a full safety compliance review of the carrier consistent
           with the safety fitness evaluation procedures set forth in part 385 of
           title 49, Code of Federal Regulations, and gives the motor carrier a
           satisfactory rating, before the carrier is granted permanent operating
           authority to operate beyond United States municipalities and
           commercial zones on the United States-Mexico border, and requires
           that any such safety compliance review take place within 18 months
           of that motor carrier being granted conditional operating authority,
           provided that—

                 (A) Mexican motor carriers with three or fewer commercial
                 vehicles need not undergo onsite compliance review; however
                 50 percent of all compliance reviews of all Mexican motor
                 carriers shall be conducted on-site; and

                 (B) any Mexican motor carrier with 4 or more commercial
                 vehicles that did not undergo an on-site safety exam under
                 (a)(1)(C), shall undergo an on-site safety compliance review
                 under this section.


Exhibit D. Text of Section 350
                                                                              46


           (3) requires Federal and State inspectors to verify electronically the
           status and validity of the license of each driver of a Mexican motor
           carrier commercial vehicle crossing the border;

                 (A) for every such vehicle carrying a placardable quantity of
                 hazardous materials;

                 (B) whenever the inspection required in subsection (a)(5) is
                 performed; and

                 (C) randomly for other Mexican motor carrier commercial
                 vehicles, but in no case less than 50 percent of all other such
                 commercial vehicles.

           (4) gives a distinctive Department of Transportation number to each
           Mexican motor carrier operating beyond the commercial zone to
           assist inspectors in enforcing motor carrier safety regulations
           including hours-of-service rules under part 395 of title 49, Code of
           Federal Regulations;

           (5) requires, with the exception of Mexican motor carriers that have
           been granted permanent operating authority for three consecutive
           years—

                 (A) inspections of all commercial vehicles of Mexican motor
                 carriers authorized, or seeking authority to operate beyond
                 United States municipalities and commercial zones on the
                 United States-Mexico border that do not display a valid
                 Commercial Vehicle Safety Alliance inspection decal, by
                 certified inspectors in accordance with the requirements for a
                 Level I Inspection under the criteria of the North American
                 Standard Inspection (as defined in section 350.105 of title 49,
                 Code of Federal Regulations), including examination of the
                 driver, vehicle exterior and vehicle under-carriage;

                 (B) a Commercial Vehicle Safety Alliance decal to be affixed
                 to each such commercial vehicle upon completion of the
                 inspection required by clause (A) or a re-inspection if the
                 vehicle has met the criteria for the Level I inspection; and

                 (C) that any such decal, when affixed, expire at the end of a
                 period of not more than 90 days, but nothing in this paragraph
                 shall be construed to preclude the Administration from

Exhibit D. Text of Section 350
                                                                             47


                 requiring reinspection of a vehicle bearing a valid inspection
                 decal or from requiring that such a decal be removed when a
                 certified Federal or State inspector determines that such a
                 vehicle has a safety violation subsequent to the inspection for
                 which the decal was granted.

           (6) requires State inspectors who detect violations of Federal motor
           carrier safety laws or regulations to enforce them or notify Federal
           authorities of such violations;

           (7)(A) equips all United States-Mexico commercial border crossings
           with scales suitable for enforcement action; equips 5 of the 10 such
           crossings that have the highest volume of commercial vehicle traffic
           with weigh-in-motion (WIM) systems; ensures that the remaining 5
           such border crossings are equipped within 12 months; requires
           inspectors to verify the weight of each Mexican motor carrier
           commercial vehicle entering the United States at said WIM equipped
           high volume border crossings; and

           (B) initiates a study to determine which other crossings should also
           be equipped with weigh-in-motion systems;

           (8) the Federal Motor Carrier Safety Administration has
           implemented a policy to ensure that no Mexican motor carrier will
           be granted authority to operate beyond United States municipalities
           and commercial zones on the United States-Mexico border unless
           that carrier provides proof of valid insurance with an insurance
           company licensed in the United States;

           (9) requires commercial vehicles operated by a Mexican motor
           carrier to enter the United States only at commercial border
           crossings where and when a certified motor carrier safety inspector
           is on duty and where adequate capacity exists to conduct a sufficient
           number of meaningful vehicle safety inspections and to
           accommodate vehicles placed out-of-service as a result of said
           inspections.

           (10) publishes—

                 (A) interim final regulations under section 210(b) of the
                 Motor Carrier Safety Improvement Act of 1999 (49 U.S.C.
                 31144 note) that establish minimum requirements for motor
                 carriers, including foreign motor carriers, to ensure they are

Exhibit D. Text of Section 350
                                                                               48


                  knowledgeable about Federal safety standards, that may
                  include the administration of a proficiency examination;

                  (B) interim final regulations under section 31148 of title 49,
                  United States Code, that implement measures to improve
                  training and provide for the certification of motor carrier
                  safety auditors;

                  (C) a policy under sections 218(a) and (b) of that Act (49
                  U.S.C. 31133 note) establishing standards for the
                  determination of the appropriate number of Federal and State
                  motor carrier inspectors for the United States-Mexico border;

                  (D) a policy under section 219(d) of that Act (49 U.S.C.
                  14901 note) that prohibits foreign motor carriers from leasing
                  vehicles to another carrier to transport products to the United
                  States while the lessor is subject to a suspension, restriction,
                  or limitation on its right to operate in the United States; and

                  (E) a policy under section 219(a) of that Act (49 U.S.C.
                  14901 note) that prohibits foreign motor carriers from
                  operating in the United States that is found to have operated
                  illegally in the United States.

     (b) No vehicles owned or leased by a Mexican motor carrier and carrying
     hazardous materials in a placardable quantity may be permitted to operate
     beyond a United States municipality or commercial zone until the United
     States has completed an agreement with the Government of Mexico which
     ensures that drivers of such vehicles carrying such placardable quantities of
     hazardous materials meet substantially the same requirements as United
     States drivers carrying such materials.

     (c) No vehicles owned or leased by a Mexican motor carrier may be
     permitted to operate beyond United States municipalities and commercial
     zones under conditional or permanent operating authority granted by the
     Federal Motor Carrier Safety Administration until—

           (1) the Department of Transportation Inspector General conducts a
           comprehensive review of border operations within 180 days of
           enactment to verify that—

                  (A) all new inspector positions funded under this Act have
                  been filled and the inspectors have been fully trained;

Exhibit D. Text of Section 350
                                                                                49



                 (B) each inspector conducting on-site safety compliance
                 reviews in Mexico consistent with the safety fitness
                 evaluation procedures set forth in part 385 of title 49, Code of
                 Federal Regulations, is fully trained as a safety specialist;

                 (C) the requirement of subparagraph (a)(2) has not been met
                 by transferring experienced inspectors from other parts of the
                 United States to the United States-Mexico border,
                 undermining the level of inspection coverage and safety
                 elsewhere in the United States;

                 (D) the Federal Motor Carrier Safety Administration has
                 implemented a policy to ensure compliance with hours-of-
                 service rules under part 395 of title 49, Code of Federal
                 Regulations, by Mexican motor carriers seeking authority to
                 operate beyond United States municipalities and commercial
                 zones on the United States-Mexico border;

                 (E) the information infrastructure of the Mexican government
                 is sufficiently accurate, accessible, and integrated with that of
                 United States enforcement authorities to allow United States
                 authorities to verify the status and validity of licenses, vehicle
                 registrations, operating authority and insurance of Mexican
                 motor carriers while operating in the United States, and that
                 adequate telecommunications links exist at all United States-
                 Mexico border crossings used by Mexican motor carrier
                 commercial vehicles, and in all mobile enforcement units
                 operating adjacent to the border, to ensure that licenses,
                 vehicle registrations, operating authority and insurance
                 information can be easily and quickly verified at border
                 crossings or by mobile enforcement units;

                 (F) there is adequate capacity at each United States-Mexico
                 border crossing used by Mexican motor carrier commercial
                 vehicles to conduct a sufficient number of meaningful vehicle
                 safety inspections and to accommodate vehicles placed out-
                 of-service as a result of said inspections;

                 (G) there is an accessible database containing sufficiently
                 comprehensive data to allow safety monitoring of all Mexican
                 motor carriers that apply for authority to operate commercial
                 vehicles beyond United States municipalities and commercial

Exhibit D. Text of Section 350
                                                                              50


                  zones on the United States-Mexico border and the drivers of
                  those vehicles; and

                  (H) measures are in place to enable United States law
                  enforcement authorities to ensure the effective enforcement
                  and monitoring of license revocation and licensing procedures
                  of Mexican motor carriers.

           (2) The Secretary of Transportation certifies in writing in a manner
           addressing the Inspector General's findings in paragraphs (c)(1)(A)
           through (c)(1)(H) of this section that the opening of the border does
           not pose an unacceptable safety risk to the American public.

     (d) The Department of Transportation Inspector General shall conduct
     another review using the criteria in (c)(1)(A) through (c)(1)(H) consistent
     with paragraph (c) of this section, 180 days after the first review is
     completed, and at least annually thereafter.

     (e) For purposes of this section, the term `Mexican motor carrier' shall be
     defined as a Mexico-domiciled motor carrier operating beyond United
     States municipalities and commercial zones on the United States-Mexico
     border.

     (f) In addition to amounts otherwise made available in this Act, to be
     derived from the Highway Trust Fund, there is hereby appropriated to the
     Federal Motor Carrier Safety Administration, $25,866,000 for the salary,
     expense, and capital costs associated with the requirements of this section.




Exhibit D. Text of Section 350
                                51




APPENDIX. MANAGEMENT COMMENTS




Appendix. Management Comments
                                52




Appendix. Management Comments
                                53




Appendix. Management Comments
                                54




Appendix. Management Comments
                                55




Appendix. Management Comments
                                56




Appendix. Management Comments
                                57




Appendix. Management Comments
                                58




Appendix. Management Comments
                                59




Appendix. Management Comments
The following pages contain textual versions of the graphs and charts found in the
preceding document. These pages were not in the original document but have
been added here to accommodate screenreaders and other assistive technology.
Textual Translation of Figures in the Report
Mexican Vehicle Out-of-Service Rates Compared to Number of
Inspections Performed
Figure 1, located on page 16 of the Report, provides a chart showing a correlation
between the increase in the number of vehicle inspections and a decline in the rate
of Mexican trucks placed out-of-service for vehicle safety violations. The chart
indicates the following.

As the number of vehicle inspections has increased, the rate of Mexican trucks
placed out-of-service for vehicle safety violations has declined from 40 percent of
inspections in FY 1999 to 23 percent in FY 2003. By comparison, the overall rate
for U.S. vehicle inspections in FY 2003 was 22 percent.

Hiring and Training of Federal Enforcement Personnel
The Table, located on page 17 of the Report, identifies the number of people hired
and trained for each of FMCSA’s designated enforcement categories and shows
the trend in hiring since our May 2003 audit. The Table indicates the following.
About 95 percent or 259 of the 274 Federal enforcement personnel positions
authorized at the southern border were filled as of June 2004. This is an increase
of 12 vacant positions since the last review. However, all vacant positions had
hiring actions in process. The 259 positions filled include 129 inspectors, 64
safety auditors, 49 investigators, and 17 supervisors or support staff. All
personnel on-board had received the required training.

States That Have Adopted the FMCSA Operating Authority Rule
Figure 2, located on page 22 of the Report, identifies the states that have adopted
the FMCSA Operating Authority Rule. The map indicates the following.
As of June 2004, 46 states had adopted the rule and 5 states: Alaska, Michigan,
New Jersey, New York and North Carolina had not. Of the five, three expect to
adopt the rule by early 2005. This is an increase of 15 from the number reported
as having adopted the rule in our May 2003 report.
